                     NATIONAL SCIENCE FOUNDATIC
                       WASHINGTON, D.C. 20550




    O f f i c e of
Inspector General



MEMORANDUM
    DATE:    September


                                 Counsel to the I


       TO:   Case File I93040016

The NASA-OIG referred an alleqation to us that NSF Program Officer




is a Collaborative Activities Program Dir
Networking and Communications ~esearchand Infrastructure.
We reviewed                        ecords and found th
The review
                                                funded travel.   We



                                                         usiness and

agreement between NSF and ISF.
The investigation has found no violations of statute or regulation.
This case is closed.
